 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


ACUTE CARE HOSPITALS IN GEORGIA
DID NOT ALWAYS RECONCILE INVOICE
 RECORDS WITH CREDIT BALANCES
    AND REPORT THE ASSOCIATED
 MEDICAID OVERPAYMENTS TO THE
          STATE AGENCY


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                     Lori S. Pilcher
                                                Regional Inspector General

                                                       February 2013
                                                       A-04-12-04021
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the program. At the Federal level, the Centers for
Medicare & Medicaid Services (CMS) administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. In Georgia, the Department of Community Health (State
agency) supervises the administration of the program. Within the State agency, the Division of
Medical Assistance administers the program.

Providers of Medicaid services submit claims to States to receive compensation. The States
process and pay the claims. Pursuant to 42 CFR § 433.10, the Federal Government pays its share
(Federal share) of State medical assistance expenditures according to a defined formula.

Credit balances may occur when a provider’s reimbursement for services that it provides exceeds
the allowable amount or when the reimbursement is for unallowable costs, resulting in an
overpayment. Credit balances also may occur when a provider receives payments from
Medicaid and another third-party payer for the same services.

Providers record and accumulate charges and reimbursements for services in each patient’s
record of account (invoice record). Providers should reconcile invoice records with credit
balances to include a review of all charges and payment records, and, if the reconciliation
identifies a Medicaid overpayment, the provider should report the overpayment to the State. The
State must refund the Federal share of the overpayment to CMS (the Act, § 1903(d)(2)(A) and
42 CFR pt. 433, subpart F).

Effective March 23, 2010, States have up to 1 year from the date of discovery of an overpayment for
Medicaid services to recover, or attempt to recover, the overpayment before making an adjustment to
refund the Federal share. Except for overpayments resulting from fraud, the State must make the
adjustment no later than the deadline for filing the quarterly expenditure report (Form CMS-64) for
the quarter in which the 1-year period ends, regardless of whether the State recovers the
overpayment.

In general, an overpayment is discovered when a State either (1) notifies a provider in writing of an
overpayment and specifies a dollar amount subject to recovery or (2) initiates a formal recoupment
action. Discovery may also occur when the provider initially acknowledges a specific overpaid
amount in writing to the State. If a Federal review (such as an audit) indicates that a State has failed
to identify an overpayment, the overpayment is considered discovered on the date the Federal
official first notifies the State in writing of the overpayment and specifies a dollar amount subject to
recovery.




                                                  i
In Georgia, the State’s regulations do not require providers to refund Medicaid overpayments
within a specific period. However, part I, section 303.8 of Georgia’s Policies and Procedures
for Medicaid and PeachCare for Kids requires providers to submit a quarterly report showing all
identified Medicaid overpayments recorded as credit balances in the providers’ accounting
systems.

This audit is part of a multistate review of credit balances at acute care hospitals, nursing
facilities, and certain noninstitutional providers. In Georgia, the audit focused on acute care
hospitals.

OBJECTIVES

Our objectives were to determine whether acute care hospitals reconciled invoice records with
credit balances and reported the associated Medicaid overpayments to the State agency.

SUMMARY OF FINDINGS

Seven of the eight acute care hospitals that we sampled did not always reconcile invoice records
with credit balances and report associated Medicaid overpayments to the State agency. Of the
123 invoice records with both Medicaid payments and credit balances in our sample, 67
contained no Medicaid overpayments; however, 56 contained Medicaid overpayments totaling
$117,238 ($79,156 Federal share). Based on these results, we estimated that the State agency
could realize an additional Statewide recovery of $1,037,810 ($710,564 Federal share) from our
audit period and obtain future savings if it enhanced its efforts to recover overpayments in
provider accounts.

The hospitals did not identify and report Medicaid overpayments because the State agency did
not require them to exercise reasonable diligence in reconciling invoice records with credit
balances to determine whether overpayments existed. Also, the State agency did not provide
adequate oversight to ensure that providers identified and reported Medicaid overpayments.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $117,238 ($79,156 Federal share) to the Federal Government for overpayments
       paid to the selected acute care hospitals and

   •   enhance its efforts to recover additional overpayments estimated at $1,037,810 ($710,564
       Federal share) from our audit period and realize future savings by requiring and ensuring
       that providers exercise reasonable diligence in reconciling invoice records with credit
       balances and reporting the associated Medicaid overpayments.




                                                 ii
STATE AGENCY COMMENTS

In comments on our draft report, the State agency noted that it is in the process of recouping the
$117,238 in overpayments, $90,935 of which related to one hospital that had identified $87,902
of the overpayments before our hospital fieldwork began. The State agency stated that OIG
failed to take into account the State agency’s ongoing process to identify and recoup credit
balances, including the time lag from identification to the return of the funds. Furthermore, it
noted that its recoupment process was already ongoing at the time of our review for the majority
of the $117,238.

The State agency disagreed with the finding that it did not require providers to exercise
reasonable diligence in identifying and reconciling credit balances. However, it agreed to
implement protocols to improve reconciling invoice records with credit balances.

OFFICE OF INSPECTOR GENERAL RESPONSE

We agree with the State agency that it has made efforts to recoup the overpayments and that
some of those efforts were ongoing both prior to and during our audit. However, we evaluated
the sampled invoice records as of December 31, 2011, and if there was an amount due to
Medicaid related to an invoice record that had a credit balance for at least 60 days, we treated
that sample unit as an error. The State should continue its efforts to collect the remainder of the
$117,238 and ensure that it returns the Federal share of $79,156 to the Federal Government.

The State agency’s plans to put in place additional procedures to ensure that providers properly
report Medicaid overpayments should ensure that providers exercise reasonable diligence in
reconciling invoice records with credit balances.




                                                 iii
                                                         TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
            Medicaid Program ..............................................................................................1
            Federal and State Requirements Related to Medicaid Overpayments ...............1
            Acute Care Hospitals .........................................................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY .................................................2
            Objectives ..........................................................................................................2
            Scope ..................................................................................................................2
            Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          INVOICE RECORDS WITH UNRESOLVED CREDIT BALANCES .................4

          MEDICAID OVERPAYMENTS NOT REPORTED .............................................5

          INEFFECTIVE POLICIES AND PROCEDURES .................................................6

          MEDICAID OVERPAYMENTS AND ESTIMATED PROGRAM
           RECOVERIES .....................................................................................................6

          RECOMMENDATIONS .........................................................................................6

          STATE AGENCY COMMENTS ............................................................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................7


APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                      iv
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the program. At the Federal level, the Centers for
Medicare & Medicaid Services (CMS) administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. In Georgia, the Department of Community Health (State
agency) supervises the administration of the program. Within the State agency, the Division of
Medical Assistance administers the program.

Providers of Medicaid services submit claims to States to receive compensation. The States
process and pay the claims. Pursuant to 42 CFR § 433.10, the Federal Government reimburses
the State for its share (Federal share) of State medical assistance expenditures according to a
defined formula.

The State agency’s Medicaid policies and procedures define a credit balance as the amount
determined to be refundable to Medicaid when a provider receives an improper or excess
payment for a claim. 1 Credit balances may occur when a provider’s reimbursement for services
it provides exceeds the allowable amount or when the reimbursement is for unallowable costs,
resulting in an overpayment. Credit balances also may occur when a provider receives payments
from Medicaid and another third-party payer for the same services.

Providers record and accumulate charges and reimbursements for services in each patient’s
record of account (invoice record). Providers should reconcile invoice records with credit
balances to include a review of all charges and payment records; and if the reconciliation
identifies a Medicaid overpayment, the provider should report the overpayment to the State. The
State must refund the Federal share of the overpayment to CMS (the Act, § 1903(d)(2)(A), and
42 CFR pt. 433, subpart F).

Federal and State Requirements Related to Medicaid Overpayments

Under 42 CFR § 433.312, States are responsible for recovering from providers any amounts paid in
excess of allowable Medicaid amounts and for refunding the Federal share to CMS. Effective
March 23, 2010, States have up to 1 year from the date of discovery of an overpayment for Medicaid
services to recover, or attempt to recover, the overpayment before making an adjustment to refund
the Federal share. Except for overpayments resulting from fraud, States must make the adjustment
no later than the deadline for filing the quarterly expenditure report (Form CMS-64) for the quarter
in which the 1-year period ends, regardless of whether the State recovers the overpayment.


1
    Part I, section 303.8 of Georgia’s Policies and Procedures for Medicaid and PeachCare for Kids.

                                                          1
In general, an overpayment is discovered when a State either (1) notifies a provider in writing of an
overpayment and specifies a dollar amount subject to recovery or (2) initiates a formal recoupment
action. Discovery may also occur when the provider initially acknowledges a specific overpaid
amount in writing to the State. If a Federal review (such as an audit) indicates that a State has failed
to identify an overpayment, the overpayment is considered discovered on the date the Federal
official first notifies the State in writing of the overpayment and specifies a dollar amount subject to
recovery. 2

In Georgia, the State agency’s regulations do not require providers to refund Medicaid
overpayments within a specific period. However, part I, section 303.8 of Georgia’s Policies and
Procedures for Medicaid and PeachCare for Kids requires providers to submit a quarterly report
showing all identified Medicaid overpayments recorded as credit balances in the providers’
accounting systems.

Acute Care Hospitals

This audit is part of a multistate review of credit balances at acute care hospitals, nursing
facilities, and certain noninstitutional providers. In Georgia, the audit focused on acute care
hospitals.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether acute care hospitals reconciled invoice records with
credit balances and reported the associated Medicaid overpayments to the State agency.

Scope

Our audit period covered 632 invoice records with unresolved credit balances 3 as of the quarter
ended December 31, 2011. The unresolved credit balances totaled $2,028,933. The 8 sampling
frames included 277 invoice records with unresolved credit balances 4 totaling $406,399.

We did not review the overall internal control structure of the State agency or the acute care
hospitals. We limited our internal control review to obtaining an understanding of the policies
and procedures that the hospitals used to review credit balances and report overpayments to the
State agency.

From November 2011 through June 2012, we conducted fieldwork at the State agency’s offices
in Atlanta, Georgia and the eight hospitals at various locations throughout Georgia.


2
    42 CFR § 433.316.
3
    The invoice records with these credit balances contained Medicaid payments.
4
    Each credit balance in our sampling frame was unresolved for at least 60 days.

                                                            2
Methodology

To accomplish our objectives, we:

      •    reviewed applicable Federal laws and regulations and State agency policy guidelines
           pertaining to Medicaid overpayments;

      •    discussed with State agency personnel the State agency’s policies and procedures for
           identifying and recovering Medicaid overpayments;

      •    created a sampling frame for the first stage of our sample design consisting of 67 acute
           care hospitals from which we randomly selected 8 (Appendix A);

      •    reviewed the hospitals’ policies and procedures for reviewing credit balances and
           reporting overpayments to the State agency;

      •    identified the invoice records in each hospital’s accounting records with a Medicaid
           payment and a credit balance that was at least 60 days old at December 31, 2011; 5

      •    reconciled these invoice records to each hospital’s total accounts receivables and
           reconciled the accounts receivables to the hospitals’ trial balance;

      •    selected a random sample of 30 invoice records with a Medicaid payment and a credit
           balance that was at least 60 days old from the 3 hospitals that had more than 30 such
           invoice records (Appendix A);

      •    reviewed all the invoice records with a Medicaid payment and a credit balance that was at
           least 60 days old from the 5 hospitals that had no more than 30 such invoice records
           (Appendix A);

      •    reviewed patient payment data, remittance advices, details of patient accounts receivable,
           and additional supporting documentation for each of the selected invoice records to
           determine overpayments that should be reported to the State agency;

      •    estimated the Statewide unrecovered Medicaid overpayments associated with unresolved
           credit balances that should be reported to the State agency (Appendix B);

      •    determined whether the hospital had taken action, subsequent to our audit period, to
           report to the State agency the Medicaid overpayments identified in our sample; and

      •    discussed our results with the eight hospitals in our sample.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain

5
    These invoice records were the sampling frames for the second stage of our sample design.

                                                           3
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                              FINDINGS AND RECOMMENDATIONS

Seven of the eight acute care hospitals that we sampled did not always reconcile invoice records
with credit balances and report associated Medicaid overpayments to the State agency. Of the
123 invoice records with both Medicaid payments and credit balances in our sample, 67
contained no Medicaid overpayments; however, 56 contained Medicaid overpayments totaling
$117,238 ($79,156 Federal share). Based on these results, we estimated that the State agency
could realize an additional Statewide recovery of $1,037,810 ($710,564 Federal share) from our
audit period and obtain future savings if it enhanced its efforts to recover overpayments in
provider accounts.

The hospitals did not identify and report Medicaid overpayments because the State agency did
not require them to exercise reasonable diligence in reconciling invoice records with credit
balances to determine whether overpayments existed. Also, the State agency did not provide
adequate oversight to ensure that providers identified and reported Medicaid overpayments. 6

INVOICE RECORDS WITH UNRESOLVED CREDIT BALANCES

As of the end of the most recent quarter, the accounting records for the eight acute care hospitals
contained 632 invoice records with unresolved credit balances totaling $2,028,933. Although
Medicaid had reimbursed the hospitals for some portion of these invoice records, the hospitals
had not reconciled, or otherwise evaluated, the invoice records to determine whether the
unresolved credit balances contained Medicaid overpayments that should have been returned to
the State agency.

Of the 632 invoice records with unresolved credit balances and a Medicaid payment, 277 totaling
$406,399 had unresolved credit balances that were at least 60 days old, as shown in the table
below.

                          Invoice Records With Unresolved Credit Balances

                                                 Number of                           Unresolved
     Days Outstanding                          Invoice Records                     Credit Balances
     60 – 180 days                                                   145                      $333,062
     181 – 365 days                                                   55                         48,665
     1 – 2 years                                                      76                         24,640
     More than 2 years                                                 1                             32
        Total                                                        277                      $406,399

6
 A Federal requirement that providers must report and repay overpayments within a certain time period was added
to section 1128J of the Social Security Act by section 6402(a) of the Patient Protection and Affordable Care Act,
P.L. No. 111-148. CMS will issue Medicaid regulations in the future to establish Federal policies and procedures to
implement the law.

                                                         4
MEDICAID OVERPAYMENTS NOT REPORTED

Part I, section 303.8 of Georgia’s Policies and Procedures for Medicaid and PeachCare for Kids
states that providers are required to submit a quarterly report showing all identified Medicaid
overpayments recorded as credit balances in the providers’ accounting systems as of the last day
of each calendar quarter. The report requires specific information for each credit balance on a
claim-by-claim basis, and the State agency uses the report to monitor and recover credit balances
due to Medicaid.

Under Federal regulations, a State must refund the Federal share of an overpayment to CMS
within a specified period after it is discovered. The overpayment would be discovered when the
provider acknowledges the overpayment amount on the quarterly report that it submits to the
State. The State must refund the Federal share on its quarterly CMS-64 report to CMS.

The State agency’s quarterly report is similar to the report that Medicare providers are required
to submit under §§ 1815(a), 1833(e), 1866(a)(1)(C), and related provisions of the Act. 7 Both the
State agency’s quarterly report and Medicare’s report notify the appropriate officials that the
provider has determined that a credit is due to the applicable Federal program for an
overpayment.

Among the hospitals in our sample, the practices for reconciling credit balances and identifying
and reporting overpayments varied widely, and some of the hospitals did not report Medicaid
overpayments to the State agency. Two out of the eight hospitals in our sample did not submit
credit balance reports for calendar year 2011.

Of the 123 invoice records in our sample, 56 contained Medicaid overpayments totaling
$117,238 ($79,156 Federal share). We identified Medicaid overpayments at seven of the eight
hospitals in our sample. The seven hospitals acknowledged that the overpayments occurred, and
we verified that the hospitals had refunded $27,395 ($17,799 Federal share) of the overpayments
to the State agency as of the end of our fieldwork.

The overpayments occurred for multiple reasons. Some overpayments occurred when hospitals
reduced their initial charges after Medicaid had already paid the initial charges. Hospitals
reduced their initial charges when (1) they combined multiple charges to a single invoice,
(2) patients qualified for drug replacement programs, or (3) audits identified billing errors.

Overpayments also resulted when Medicaid and other third parties, such as Medicare or
commercial insurers, made payments. These overpayments occurred when hospitals received
payments from Medicaid and third parties that totaled more than the Medicaid allowable amount
for the charges on the invoice record.




7
    See Form CMS-838, Medicare Credit Balance Report.

                                                        5
INEFFECTIVE POLICIES AND PROCEDURES

The hospitals did not identify and report Medicaid overpayments because the State agency did
not require them to exercise reasonable diligence in reconciling invoice records with credit
balances to determine whether overpayments existed. Also, the State agency did not provide
adequate oversight to ensure that providers identified and reported Medicaid overpayments. For
example, the State agency did not contact the two hospitals in our sample that failed to submit
quarterly credit balance reports for any of the quarters ending during the calendar year 2011.

Additionally, the State agency contracted with a vendor to identify and verify potential third
party resources for Medicaid members and to identify claims paid that may be the liability of a
third party. However, this vendor did not review the quarterly credit balance reports submitted
by providers.

MEDICAID OVERPAYMENTS AND ESTIMATED PROGRAM SAVINGS

Of the 123 invoice records with both Medicaid payments and credit balances in our sample, 56
contained overpayments totaling $117,238 ($79,156 Federal share) paid to 7 acute care hospitals.
The State agency should refund the Federal share of those overpayments to CMS. (See
Appendix B for details of our sample results.)

We estimated that the State agency could realize an additional Statewide recovery of $1,037,810
($710,564 Federal share) from our audit period and obtain future savings by requiring providers
to exercise reasonable diligence in reconciling invoice records with credit balances and reporting
associated Medicaid overpayments. (See Appendix B for details of our Statewide estimate.)

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $117,238 ($79,156 Federal share) to the Federal Government for overpayments
       paid to the selected acute care hospitals and

   •   enhance its efforts to recover additional overpayments estimated at $1,037,810 ($710,564
       Federal share) from our audit period and realize future savings by requiring and ensuring
       that providers exercise reasonable diligence in reconciling invoice records with credit
       balances and reporting the associated Medicaid overpayments.

STATE AGENCY COMMENTS

In comments on our draft report, the State agency noted that it is in the process of recouping the
$117,238 in overpayments, $90,935 of which related to one hospital that had identified $87,902
of the overpayments before our hospital fieldwork began. The State agency stated that OIG
failed to take into account the State agency’s ongoing process to identify and recoup credit
balances, including the time lag from identification to the return of the funds. Furthermore, it


                                                 6
noted that its recoupment process was already ongoing at the time of our review for the majority
of the $117,238.

The State agency disagreed with the finding that it did not require providers to exercise
reasonable diligence in identifying and reconciling credit balances. However, it agreed to
implement protocols to improve reconciling invoice records with credit balances. The State
agency’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

We agree with the State agency that it has made efforts to recoup the overpayments and that
some of those efforts were ongoing both prior to and during our audit. However, we evaluated
the sampled invoice records as of December 31, 2011, and if there was an amount due to
Medicaid related to an invoice record that had a credit balance for at least 60 days, we treated
that sample unit as an error. The State should continue its efforts to collect the remainder of the
$117,238 and ensure that it returns the Federal share of $79,156 to the Federal Government.

The State agency’s plans to put in place additional procedures to ensure that providers properly
report Medicaid overpayments should ensure that providers exercise reasonable diligence in
reconciling invoice records with credit balances.




                                                 7
APPENDIXES
                                                                                      Page 1 of 2


                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of acute care hospitals in Georgia that received a Medicaid payment
during the quarter ended September 30, 2011.

SAMPLING FRAME

The State agency provided a database of Georgia Medicaid payments for acute care hospitals for
the quarter ended September 30, 2011. The database consisted of 143 acute care hospitals with
434,768 claims totaling $312,527,831. We eliminated all hospitals with less than $1 million in
paid claims for the quarter ended September 30, 2011. The resulting sampling frame consisted
of 67 acute care hospitals with 353,756 claims totaling $286,283,893.

SAMPLE UNIT

The primary sample unit was an acute care hospital. The secondary sample unit was an invoice
record with a Medicaid payment and a credit balance that was at least 60 days old as of the date
of the most recently ended quarter before we began fieldwork. For all of the hospitals in our
sample, this date was December 31, 2011.

SAMPLE DESIGN

We used a multistage sample design. The first stage consisted of a random selection of eight
acute care hospitals from the sampling frame. The second stage consisted of a random sample at
each of the selected hospitals when the hospital had more than 30 invoice records with Medicaid
payments and credit balances. If the hospital did not have more than 30 invoice records with
Medicaid payments and credit balances, we selected all of that hospital’s invoice records with
Medicaid payments and credit balances for review.

SAMPLE SIZE

We selected eight acute care hospitals as the primary units. For the secondary units, we selected
a random sample of 30 invoice records from 3 hospitals and all invoice records from the
remaining 5 hospitals, for a total of 123 invoice records in the amount of $329,466.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OIG/OAS), statistical software.
                                                                                    Page 2 of 2


METHOD OF SELECTING SAMPLE ITEMS

For the primary units, we consecutively numbered the acute care hospitals in our sampling frame
from 1 to 67. After generating the random numbers, we selected the corresponding frame items.
For the hospitals with more than 30 secondary units, we consecutively numbered the invoice
records in the sampling frame for each hospital. After generating the random numbers, we
selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of Medicaid overpayments.
                        APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                       SAMPLE RESULTS OF MEDICAID OVERPAYMENTS


                                                  Amount of Actual              Federal Share of
                                                   Overpayments                  Overpayments
                          Hospital
                 Hospital 1                                       $524                            $386
                 Hospital 2                                       1,426                           1,016
                 Hospital 3                                       1,670                           1,098
                 Hospital 4                                           0                               0
                 Hospital 5                                         878                             581
                 Hospital 6                                      19,694                          14,460
                 Hospital 7                                      90,935                          60,160
                 Hospital 81                                      2,111                           1,455
                                       Total                   $117,238                         $79,156

                       STATEWIDE ESTIMATE OF POTENTIAL SAVINGS 2

                                                                                                        Value of
                                                             Number                                  Overpayments in
                                                        of Overpayments          Value of            Sample (Federal
    Frame       Value of      Sample       Value of         in Sample         Overpayments in            Share)
     Size        Frame         Size        Sample                                 Sample

     277       $406,399         123        $329,466             56                $117,238                $79,156




                                     Estimated Value of Overpayments
                           (Limits Calculated for a 90-Percent Confidence Interval)

                               Point estimate                                $1,155,048
                               Lower limit                                     (49,447)
                               Upper limit                                   $2,359,542

                             Estimated Value of Overpayments (Federal Share)
                           (Limits Calculated for a 90-Percent Confidence Interval)

                               Point estimate                                 $789,720
                               Lower limit                                     (19,141)
                               Upper limit                                   $1,598,582




1 In accordance with the Office of Inspector General, Office of Audit Services policy, we did not use the results of
stratum eight in calculating the estimated values of overpayments
2
    The estimated value of the overpayments includes the value of overpayments in the sample.
                             APPENDIX C: STATE AGENCY COMMENTS
                                                                                                 Page 1 of5

         GEORGIA DEPARTMENT 

         OF COMMUNITY HEALTH 





David A. Cook, Commissioner 	                                                                Nathan Deal, Governor

           2 Peachtree Street, NW    Atlanta, GA 30303-3159 \ 404-656-4507      I   www.dch.georgia.gov


                                                      December 28, 2012



       Lori S. Pilcher 

       Office of Inspector General 

       Regional Inspector General for Audit Services 

       Office of Audit Services, Region IV 

       6'1 Forsyth Street, SW, Suite 3T41 

       Atlanta, GA 30303 


       Re: Response to OIG Audit Report- Credit Balances 


       Dear Ms. Pilcher, 


       Thank you for allowing the Georgia Department of Community Health (DCH) to review the 

       Health and Human Services Office of Inspector General's draft report A-04-12-04021 related to 

       Hospital Credit Balance processing for Georgia Medicaid. We appreciate the diligence that 

       went into this review, and we welcome the opportunity for external review and improvements in 

       our internal processes. 


       Summary of OIG Findings and Recommendations 

       The draft report outlines two OIG findings. These findings are summarized below. 


           1. 	 Seven of eight acute care hospitals sampled did not always reconcile invoice records
                with credit balances and report associated Medicaid overpayments to the Department of
                Community Health (DCH).

           2. 	 Providers did not identify and report overpayments because DCH did not require
                providers to exercise reasonable diligence in reconciling invoice records with credit
                balances to determine whether overpayments existed.


        These two findings resulted in the following OIG recommendations cited in report.
           1. 	 Refund $117,238 ($79,156 Federal share) to the Federal Government for overpayments
                paid to the selected acute care hospitals.

           2. 	 Enhance efforts to recover additional overpayments estimated at $1,037,810 ($710,564
                Federal share). Realize future savings by requiring and ensuring that providers exercise



     Health Information Technology 1 Healthcare Facility Regulation l Medicaid I State Health Benefit Plan 


                                             Equal Opportunity Employer 

                                                                                        Page 2 of5
Response to OIG Audit Report -Credit Balances
Pg.2

        reasonable diligence in reconciling invoice records with credit balances and reporting the
        associated Medicaid overpayments.

DCH Response
DCH acknowledges that there are always improvements that can be made in most any business
process. However, DCH rejects the OIG finding that DCH did not require providers to exercise
reasonable diligence in identifying and reconciling credit balances. Additionally, we find that the
OIG review largely fails to recognize DCH's ongoing process to identify and recoup hospital
credit balances. This includes the time lag from identification to return of those funds. This is
evidenced by the fact that the majority of the refund identified was already in process at the time
of the OIG review. The DCH response is further explained below.


   • 	 Refund of $117,238 ($79, 156 Federal share)
          o 	 DCH reviewed the refund of $117 ,238($79, 156 Federal share)
                  • 	 The bulk of the $117,237 was in process for retraction by the MM!S
                      vendor. Hospital 7 had correctly reported the bulk of the overpayment
                      ($87,902 out of $90,935) to Medicaid on the 12/31/2011 DMA 710 Form
                  " 	 The retraction $87,902 of these funds have been submitted for
                      recoupment. DCH is awaiting a retraction from HP.
                  " To ensure non duplication of retraction, a check copy has not been
                      requested simultaneously with the retraction processing.
                  • 	 Seven hospitals acknowledged the overpayments and refunded the State
                      $27,395 ($17,799 Federal share).
                  • 	 DCH and our TPL vendor will ensure that all remaining overpayments are
                      refunded by the provider to the State.
   • 	 Enhance efforts to recover additional overpayments
          o 	 DCH agrees to implement protocols to improve reconciling invoice records with
              credit balances
                  • 	 Implement scorecard of providers to measure self reporting
                  • 	 Random sample providers that repeatedly declare $0 credit balances
                  • 	 Institute follow-up efforts for non-complying providers to ensure
                      overpayments are refunded to DCH




           Refund of $117 ,238 ($79 ,156 Federal share ) to the Federal Government

Excerpts applicable from Summary of Findings pp. ii of OIG Audit Report:

   Seven of the eight acute care hospitals that we sampled did not always reconcile invoice
   records with credit balances and report associated Medicaid overpayments to the State
   agency. Of the123 invoice records with both Medicaid payments and credit balances in our
   sample, 67 contained no Medicaid overpayments; however, 56 contained Medicaid
   overpayments totaling $117,238 ($79, 156 Federal share).
                                                                                             Page 3 of5
Response to OIG Audit Report - Credit Balances
Pg. 3

Information and Response:

Based on the sample results of Medicaid overpayments, the bulk of the $117,238 in
overpayments was identified at Hospital 7. $90 ,935 in overpayments or approximately 78% of
the identified refunds were contained within this facility. Of the entire overpayments identified
75% were in process for refund to DCH . Per the OIG audit notes , two accounts totaling $87 ,902
were correctly reported on the 12/31/11 DMA-71 0 form . The provider has also reported these
overpayments to the State on the 3/31/12 DMA-71 0 form .

DCH and our TPL vendor along with Hospital 7 have made several attempts to resolve these
overpayments (Documentation of these attempts is available upon request by HHS OIG). HP
paid claims to this provider that should have been paid as secondary, but were paid as primary.
The provider contacted HP to notify them of the error. The provider also inquired about the
method of refunding the overpayments. HP responded by asking that the provider not send
checks because they would reprocess the claims for the overpayments .

Subsequently, the provider also received a quarterly reporting notice from our TPL vendor. The
provider contacted DCH with concerns about how they should report their overpayments due to
the reprocessing of claims by HP. We advised the provider to allow HP to reprocess the claims
and not to submit the overpayments through the TPL vendor credit balance process to avoid a
possible duplicate recoupment. In an effort to expedite the refunding of these monies, our TPL
vendor will contact DCH to inquire about the status of recoupment and an expected
reprocessing timeframe .

As of the end of the OIG fieldwork, seven hospitals have also acknowledged that the identified
overpayments occurred , and OIG has verified that the hospitals have refunded $27,395
($17 ,799 Federal share).

DCH through our TPL contractor will diligently recover all remaining Medicaid overpayments by:

   • 	 Drafting a follow-up credit balance audit letter for review and approval by the State. The
       letter will contain the following information :
                    • 	 Overpayments identified by OIG
                    • 	 30-day timeframe to refund
                    • 	 Lockbox information
                    • 	 Contact information

   • 	 Mailing the audit letter certified , to the attention of the Chief Financial Officer for each
       institution.

   • 	 Following - up via phone call approximately one week from the date that the letter is
       mailed. If there is no response, or if there is a message left, our vendor will return the
       phone call within 2 business days. If there is no response after a 3rd attempt, we will
       instruct our vendor to escalate these issues for DCH involvement.




                     Enhance Efforts to Recover Additional Overpayments

Excerpts applicable from Summary of Findings pp. ii of OIG Audit Report:
                                                                                        Page 4 of5
Response to O!G Audit Report -Credit Balances
Pg.4

   Based on these results, we estimated that the State agency could realize an additional
   statewide recovery of $1,037,810 ($710,564 Federal share) from our audit period and obtain
   future savings if it enhanced its efforts to recover overpayments in provider accounts.
   The providers did not identify and report Medicaid overpayments because the State agency
   did not require providers to exercise reasonable diligence in reconciling invoice records with
   credit balances to determine whether overpayments existed. Also, the State agency did not
   provide adequate oversight to ensure that providers identified and reported Medicaid
   overpayments.

Information and Response:

   DCH credit balance audit policy requires providers to routinely report overpayments within
   30 days of each quarter close. In June 2012, providers were reminded and instructed to
   complete the reporting of their overpayments using DMA-710. All reported overpayments
   are to be submitted on the state DMA-710 form and checks are mailed to the state-owned
   lockbox. In addition to self-reporting, all providers are targeted, twice a year, for a possible
   on-site audit review.

   To ensure that providers exercise reasonable diligence in reporting Medicaid overpayments,
   DCH will put in place the following procedures:

   • 	 Create a provider bulletin that will educate providers on the audit process, deadlines and
       reporting requirements. DCH will recommend that this bulletin is published at least twice
       a year. This will ensure that the proper audit protocols have been communicated to
       each provider and minimize confusion on the process.

   • 	 DCH through our TPL vendor will create a score card for every acute care provider in the
       State. For each quarter, our TPL vendor will document the reporting of credit balances
       to the State. If a provider has not reported any overpayments within 30 days of the
       quarter-close, DCH will instruct our TPL vendor to follow-up via letter and two phone
       calls to Patient Accounts Director and/or Chief Financial Officer. If a provider does not
       respond after three attempts, we will request that our TPL vendor escalate the matter to
       DCH for further follow-up. This procedure will guarantee that every provider responds to
       the quarterly reporting requirements.

   • 	 For every Medicaid overpayment that is reported to DCH, our policy will require that
       each provider submit their systems - generated, quarter ending, credit balance report
       along with their DMA-710 form and overpayments. If there are credit balance accounts
       in question, we will request additional information. We may also randomly select credit
       balance accounts where overpayments were not identified by the provider, to make
       certain that there is no refund due. This will ensure that every credit balance account is
       being reviewed and refunded for specified audit time period.

   • 	 For providers that are reporting zero credit balances for any quarter, we will request that
       the provider submit their systems-generated, quarter-ending credit balance report, along
       with the DMA-710 form. We will randomly select accounts for a more detailed review.
       DCH may also request to target those providers for an on-site review.
                                                                                            Page 5 of5
Response to OIG Audit Report ·-Credit Balances
Pg. 5

Again, DCH appreciates the review conducted by the OIG, and we acknowledge areas for
improvement and our strategies to accomplish those improvements above . We trust this
response letter and the additional detail regarding the status of the recoupments of outstanding
hospital credit balances described in this response gives the OlG additional confidence in the
hospital credit balance reconciliation process . If you have any questions or concerns about the
content of this response , please contact Ms . Lorraine McMillion , Director Third Party Liability, at
imcmillion@dch .ga.gov or (404) 657 -9510.


                                                 Sincerely,

                                                 Jerry L. Dubberly

                                                 Jerry Dubberly
                                                 Chief, Medicaid Division
